r

EXHIBIT QQQQ-1

HON. HOWARD F. REGHT
District Judge, Department No. 1
Twenty-first Judicial District
Ravalli County Courthouse
205 Bedford Street, Suite A
Hamilton, MT 59840-2853
Telephone: (406) 802-7188

Paige TRAU’i'wgiN, clerk

Jill 0 2 2019

t)

DEPUTY

MONTANA TWENTY-FIRST JUDICIAL DISTRICT COURT, RAVALLI COUNTY
STATE OF MONTANA,

)

Cause No. DC-12-127 j

)

Plaintiff,
-vs-

)
)
)

Department No. 1
HOWARD F. RECHT
ORDER

)

JOSEPH EDWARD LAWRENCE,
Defendant.

)
)
)

This matter comes before the Court upon Defendant’s pro se Motion to Compelfor
Production ofPublic Records, Documents, Records, Information, Reports, and Evidence filed on
June 25, 2019. Defendant has also filed a supporting memorandum of law. Defendant attaches
no certificate of service showing he served Plaintiff State of Montana (“State”) with these filings;
presumably, he did not serve the State as he was required to do.
Defendant seeks an order compelling numerous entitles, including the Montana Supreme
Court, the Montana Judicial Standards Commission, the Montana Attorney General’s; Office, the
Federal Bureau of Investigation, the Drug Enforcement Agency, and the U.S. Department of
Justice, to produce information and documents related to any complaints, criminal acts, official
ORDER

APPENDIX A

i

m.

r

EXHIBIT QQQQ-2

misconduct, ethical violations, investigations, and sanctions involving former Twenty-first
Judicial District Court Judges Jeffrey H. Langton and James A. Haynes and Ravalli County
Attorney Bill Fulbright. (Judge Haynes, followed by Judge Langton, presided over the
underlying criminal case in this matter, and Mr. Fulbright was the prosecutor in the underlying
criminal case. Both judges have since retired from the bench.)
The basis for Defendant’s motion is “numerous apparently factually supported allegations
of judicial misconduct, bias, prejudice, partiality, and alleged criminal activity corresponding
with the recent [retirements of Judges] Jeffrey H. Langton and James A. Haynes,” and
“seemingly factually supported allegations of Prosecutorial misconduct and/or criminal acts by
the Ravalli County Prosecutor.” Mot. to Compel, 1. Defendant references “numerous media
reported articles stating claims and allegations of both civil and criminal wrongdoing and
misconduct” by these three officials; however. Defendant does not specify any such allegations,
indicate the source of such purported allegations, or attach any media articles in support. Id., 6.
Defendant appears to take issue with the fact that Judges Langton and Haynes retired
during their six-year terms instead of at the end of their terms. He contends this timing “rais[es]
red flags” regarding the reasons for their retirement and probably signals “cover-up,
improprieties and public decptions [sic].” Id. Defendant contends he is “proceeding in the
interests of public safety and security” and relies on Article n, Section 9, of the Montana
Constitution, and § 2-6-1006, MCA, as legal authority for his motion. Id., 1.
Defendant has no outstanding claim in this case on-which to base a motion to compel, nor
does he explain how his motion has any bearing upon the Underlying criminal proceeding which
concluded with Defendant’s sentencing on June 28,2017, after Defendant had entered Alford

ORDER

APPENDIX A’

2

18.

EXHIBIT QQQQ-3

pleas pursuant to a plea agreement to charges of sexual offenses perpetrated upon adolescent
boys. As part of his plea agreement, Defendant waived his right to appeal or otherwise
challenge his conviction by direct appeal, habesas corpus, or postcoriviction relief. Plea
Agreement (2017) at 1 (Apr. 28,2019). “[W]here a defendant voluntarily and knowingly pleads
guilty to an offense, the plea constitutes a waiver of all non-jurisdictional defects and defenses,
including claims of constitutional rights violations which occurred prior to the plea.” State v.
Watts, 2016 MT 331, f 9,386 Mont. 8, 385 P.3d 960.
Defendant’smotion to compel appears to be a fishing expedition for unspecified and
apparently nonexistent information about Judges Haynes arid Langton and Prosecutor Fulbright
in reliance on “apparent” and “seemingly factually supported” allegations of misconduct.
Defendant’s motion, which lacks any factual or legal basis, is without merit.
Accordingly:
IT IS HEREBY ORDERED that Defendant’s Motion to Compelfor Production ofPublic
Records, Documents, Records, Information, Reports, and Evidence is DENIED.
DATED this

day of July, 2019.
rT

HON. HOWARD F. RECHf, District Judge
cc:

Joseph Edward Lawrence, pro se
Ravalli County Attorney

I certify thatl forwarded copies of
fills instrument In ctonscl of record
CnO 0~t

APPENDIX A

9

?

i—rr1 er~o.ii-

ORDER

Paid1 Trautwein. Clerk

tr

,

t

Qa. -A ^
Deputy

^

3

EXHIBIT FFFFF-1

FILED

Are

03/31/2020

1 r

Bowen Greenwood

IN THE SUPREME COURT OF THE STATE OF MONTANA

CLERK OF THE SUPREME COURT
STATE OF MONTANA

Case Number: DA 19*0431

DA 19-0431

MAR 3 1 2020

STATE OF MONTANA,

Bowen Greenwood
Clerk of Supreme Court
State of Montana

Plaintiff and Appellee,
v.

ORDER

JOSEPH E. LAWRENCE,
Defendant and Appellant.

The State of Montana moves for dismissal of this appeal.

Self-represented

Appellant Joseph E. Lawrence has filed a response in opposition.
In April 2017, Lawrence entered Alford (N.C. v. Alford, 400 U.S. 25,
91 S. Ct. 160(1970)) pleas to felony sexual assault and felony solicitation for sexual
assault in April 2017.

On June 28, 2017, the Twenty-First Judicial District Court,

Ravalli County, imposed a twenty-year sentence with ten years suspended and gave
Lawrence credit for 1,103 days of time served. He did not appeal his 2017 convictions,
but sought habeas corpus relief. This Court denied Lawrence relief in an Opinion and
Order issued March 26, 2019.

Lawrence v. Guyer, No. OP 18-0440, 2019 MT 74,

395 Mont. 222, 440 P.3d 1. This Court held that “Lawrence's Alford pleas were guilty
pleas, not nolo contendere pleas, and that § 46-12-204(4), MCA, did not prohibit the
District Court from accepting the Alford pleas to the sexual offenses.” Lawrence.

10.

On June 25, 2019, Lawrence filed a post judgment motion to compel production in
his underlying criminal proceeding involving the two sexual offenses for which he was
convicted.

In denying Lawrence’s motion to compel, the District Court summarized

Lawrence’s motion as seeking information related to misconduct involving former
Twenty-First Judicial District Court Judges Jeffrey H. Langton and James A. Haynes, as
well as Ravalli County Attorney Bill Fulbright.
APPENDIX B

20,

The District Court concluded that

EXHIBIT FFFFF-2

Lawrence waived his right to make these challenges when Lawrence pleaded guilty nearly
two years earlier. Wc agree.
Section 46-20-104(1). MCA. provides: ‘:An appeal may he taken by the defendant
only from a final judgment of conviction and order after judgment which affect the
substantial rights of the defendant.'’ Lawrence is appealing an order issued after judgment.
His case was completed in District Court and this Court denied Lawrence habeas corpus
relief. Lawrence has failed to show that the denial of his motion to compel affects his
substantial rights; Lawrence pleaded guilty, did not preserve or raise this issue prior to
entering his guilty piea, and did not appeal his convictions. We have determined that this
appeal is improper and that its dismissal is warranted. Accordingly,
IT IS ORDERED that the Slate’s Motion to Dismiss is GRANTED and this appeal
is DISMISSED with prejudice.
The Clerk of the Supreme Court is directed to provide a copy of this Order to counsel
of record and to Joseph E. Lawrence personally.
DATED (his J’jJjJav of March, 2020.
/

A
Ch.ief.1 ust ice

f

/

-'0

Justices
APPENDIX B

2\,

EXHIBIT QQQQQ-1

Bowen Greenwood
CLERK

State of Montana
Office of Clerk of the Supreme Court
P.O. Box 203003
Helena, MT 59620-3003
406-444-3858 phone
406-444-5705 fax
13 April 2020

JOSEPH LAWRENCE
3014255
MONTANA STATE PRISON
700 CONLEY LAKE ROAD
DEER LODGE, MT 59722

Dear Mr. Lawrence:
This office received your document entitled “Appellant’s Objection and Response.” The document
references Docket Number DA 19-0431. That case is closed. Your document is being returned.

Sincerely,

BOWEN GREENWOOD
Clerk of the Supreme Court

Enc.

APPENDIX C

22 =
www.courts.mt.gov/derk

Additional material
from this filing is
available in the
Clerk's Office.

